           Office of Inspector General




December 21, 2004

WILLIAM P. GALLIGAN
VICE PRESIDENT, DELIVERY AND RETAIL

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:         Audit Report – Automated Postal Center Program Management
                 (Report Number CA-AR-05-001)

This report presents the results of our self-initiated review of Automated Postal Center
(APC) Program Management (Project Number 04XG007CA000). Our objective was to
determine whether the Postal Service acquired APCs that met functional requirements,
capital funding levels, and schedule requirements specified in the approved Decision
Analysis Report (DAR). Additionally, we determined whether the APC program office
kept the Board of Governors and senior Postal Service officials fully and timely informed
of program status.

On April 14, 2004, the APC program office began a phased, nationwide deployment of
2,500 APCs. As of August 11, 2004, the Postal Service reported it had installed
912 APCs that had collected approximately $11.1 million in revenue and planned to
complete deployment of the remaining 1,588 APCs by November 2004. However, the
process for selecting APC deployment sites needed improvement since the Postal
Service incurred $68,742 for facility design and support for 46 sites no longer included
in the APC deployment schedule. These costs represent unrecoverable costs for the
Postal Service and will be reported as such in our Semiannual Report to Congress.
Also, although deployed APCs generally met requirements, they were missing four
functional capabilities described in the DAR and the APC development and deployment
processes included control weaknesses that exposed the Postal Service to
unnecessary risks. Additionally, APC capital investment costs may exceed the
approved $95.43 million capital funding level. Finally, the program office generally kept
the Board of Governors and senior Postal Service officials timely informed of changes in
APC program status via the Investment Highlights reports, but did not disclose a
potentially significant operational concept change and that four functional requirements
described in the DAR were not included with deployed APCs.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Management agreed with our recommendations to develop and document APC
requirements, prepare schedules and cost estimates for planned future upgrades not
already on contract, complete site security reviews, and ensure contractor employees
obtain appropriate security clearances. Additionally, management agreed to coordinate
the site selection process for future APCs with all affected stakeholders. Also,
management agreed to submit quarterly DAR compliance reports that fully
communicate missing APC functionality and operational concept changes and to submit
a DAR Modification Request for Board of Governor consideration and approval, if
necessary, that identifies additional capital funding requirements. Finally, management
agreed to capitalize contractor Customer Acceptance Testing costs; however, they
disagreed with our recommendations to capitalize certain other program costs. We
consider management’s disagreement with recommendations 7, 8, 10, and 11 as
unresolved and plan to pursue these issues through the formal audit resolution process.
Management’s comments and our evaluation of these comments are included in the
report.

The OIG considers recommendations 1, 2, 3, 7, 8, 9, 10, 11, 12, and 14 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Supply Management and Facilities, or me at (703) 248-2300.

/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachment

cc: Richard J. Strasser, Jr.
    John A. Rapp
    Keith Strange
    Janet L. Webster
    Steven R. Phelps
Automated Postal Center Program Management                         CA-AR-05-001




                                TABLE OF CONTENTS

 Executive Summary                                                  i

 Part I

 Introduction                                                       1

    Background                                                      1
    Objectives, Scope, and Methodology                              2
    Prior Audit Coverage                                            3

 Part II

 Audit Results                                                      4

    Opportunities for Improved APC Program Management               4

    APCs Provided Most DAR Functional Requirements                  5
    Recommendations                                                 8
    Management’s Comments                                           8
    Evaluation of Management’s Comments                             8

    APC Costs May Exceed Approved Funding                          11
    Recommendations                                                14
    Management’s Comments                                          14
    Evaluation of Management’s Comments                            15

    APC Deployment Expected Within Revised Schedule                20
    Recommendation                                                 20
    Management’s Comments                                          21
    Evaluation of Management’s Comments                            21

    Changes to APC Program Status Timely Communicated              22
    Recommendation                                                 23
    Management’s Comments                                          23
    Evaluation of Management’s Comments                            23

 Appendix A. Sites No Longer Included in APC Deployment Schedule   24

 Appendix B. Management’s Comments                                 26
Automated Postal Center Program Management                                       CA-AR-05-001




                                EXECUTIVE SUMMARY
 Introduction                This report presents the results of our self-initiated audit to
                             determine whether the Postal Service acquired automated
                             postal centers (APCs) that met functional requirements,
                             capital funding levels, and schedule requirements specified
                             in the approved Decision Analysis Report (DAR).
                             Additionally, we determined whether the APC program
                             office kept the Board of Governors and senior Postal
                             Service officials fully and timely informed of program status.

 Results in Brief            As of August 11, 2004, the Postal Service reported it had
                             installed 912 APCs that had collected approximately
                             $11.1 million in revenue and planned to deploy 1,588 more
                             APCs by November 2004. However, the process for
                             selecting APC deployment sites needed improvement since
                             the Postal Service incurred $68,742 for facility design and
                             support for 46 sites no longer included in the APC
                             deployment schedule. These costs represent
                             unrecoverable costs for the Postal Service and will be
                             reported as such in our Semiannual Report to Congress.
                             Also, although deployed APCs generally met requirements,
                             they were unable to print forms for all certified mail classes
                             and return receipts or provide hold mail, track and confirm,
                             and change-of-address services as described in the DAR.
                             In addition, APC development and deployment processes
                             included control weaknesses related to site security reviews
                             and contractor security clearances.

                             Furthermore, APC capital investment costs may exceed the
                             approved $95.43 million capital funding level because the
                             funding level was estimated before APC program
                             requirements were sufficiently developed to prepare
                             independent cost estimates or allow contractors to submit
                             priced proposals. In addition, the Postal Service classified
                             some program costs as expenses rather than capital
                             investments.

                             Finally, the program office generally kept the Board of
                             Governors and senior Postal Service officials timely
                             informed of changes in APC program status via the
                             Investment Highlights reports. However, the program office
                             did not disclose that the deployed APCs did not include all
                             functional requirements described in the DAR. In addition,



                                               i
Automated Postal Center Program Management                                      CA-AR-05-001



                             the program office did not report the Postal Service plans to
                             deploy approximately 1,000 of the 2,500 (40 percent) of the
                             APCs to post offices without 24-hour, 7-days-a-week access
                             (a potentially significant operational concept change).

 Summary of                  We recommended Postal Service management:
 Recommendations
                             •   Develop and document APC requirements and prepare
                                 schedules and cost estimates for planned future
                                 upgrades not already on contract.

                             •   Complete site security reviews and ensure contractor
                                 employees obtain appropriate security clearances.

                             •   Properly classify capital costs and, if necessary, submit
                                 a DAR Modification Request for Board of Governor
                                 consideration and approval that identifies additional
                                 capital funding requirements.

                             •   Coordinate with all affected stakeholders to develop
                                 criteria and select deployment sites for all APCs not yet
                                 scheduled for deployment and for any future APC
                                 acquisitions.

                             •   Submit quarterly DAR compliance reports that fully
                                 communicate missing APC functionality and operational
                                 concept changes.

 Summary of                  Management agreed to develop and document APC
 Management’s                requirements and prepare schedules and cost estimates for
 Comments                    planned future upgrades not already on contract.
                             Additionally, management agreed to complete site security
                             reviews and ensure contractor employees obtain
                             appropriate security clearances. Also, management agreed
                             to coordinate the site selection process for future APCs with
                             all affected stakeholders. Furthermore, management
                             agreed to submit quarterly DAR compliance reports that
                             fully communicate missing APC functionality and
                             operational concept changes and to submit a DAR
                             Modification Request for Board of Governor consideration
                             and approval, if necessary, that identifies additional capital
                             funding requirements. Finally, management agreed to
                             capitalize contractor Customer Acceptance Testing




                                              ii
Automated Postal Center Program Management                                   CA-AR-05-001



                             costs; however, they disagreed with our recommendations
                             to capitalize certain other program costs. Management’s
                             written comments, in their entirety, are included in
                             Appendix B of this report.

                             Management provided additional information concerning
                             estimated completion dates that has been incorporated into
                             this report.

 Overall Evaluation of       We consider management’s comments responsive to
 Management’s                recommendations 1, 2, 3, 4, 5, 6, 9, 12, 13, and 14.
 Comments                    However, the Office of Inspector General (OIG) considers
                             management’s disagreement with recommendations 7, 8,
                             10, and 11 not responsive. Specifically, the OIG believes
                             that in accordance with Postal Service policies and
                             regulations, APC program costs associated with contractor
                             program management and project office administration,
                             APC backdrops, printer hardware, and APC collection
                             boxes should be capitalized.

                             We view disagreements on recommendations 7, 8, 10, and
                             11 as unresolved and plan to pursue them through the
                             formal audit resolution process.




                                             iii
Automated Postal Center Program Management                                                            CA-AR-05-001



                                             INTRODUCTION
    Background                     The Postal Service Transformation Plan states, “In today’s
                                   economy, creating customer value means both improving
                                   quality and affordability of products and services and
                                   providing the ability to access and use these products and
                                   services at times and places that are most convenient to the
                                   customer.” It further states, “retail and products and
                                   services are the main areas of growth in the Postal Service.”

                                   On April 1, 2003, to help achieve Transformation Plan
                                   strategies, the Postal Service Board of Governors approved
                                   a Decision Analysis Report (DAR) authorizing the Postal
                                   Service to invest up to $95.43 million for the design,
                                   development, and deployment of 2,506 automated postal
                                   centers (APCs) by July 2004.

                                   The purpose of the APC program was to provide Postal
                                   Service customers convenient and reliable 24-hour, 7-days-
                                   a-week automated access to a broad range of Postal
                                   Service products, services, and information. This included
                                   the ability to weigh letters and packages, purchase
                                   appropriate postage, purchase stamps, look up ZIP Codes,
                                   and initiate change-of-address actions. The APCs were
                                   designed to interface with existing information technology
                                   infrastructure, allowing customers to use debit or credit
                                   cards to pay for products and services without having to
                                   interface with Postal Service personnel.

                                   In March 2003, the Postal Service entered into a contract for
                                   the advance design and development of APCs and in
                                   November 2003 awarded a contract to develop and deploy
                                   APCs nationally. Additionally, the Postal Service awarded
                                   major contracts for APC backdrops1 and collection boxes.2




1
  The backdrop contract was for the design, development, construction, delivery, and installation of illuminated
backdrop surrounds for the APC machines.
2
  The collection box/mail drop contract was for the purchase of 1,043 stand-alone collection boxes and 1,457 in-wall
mail drops (2,500 total) designed to interface with the APC and enable the safe/secure collection of customer
mail/parcels after utilizing the APC.



                                                          1
Automated Postal Center Program Management                                              CA-AR-05-001




                             Exhibit A. An APC machine, backdrop, and collection box.


 Objectives, Scope,          Our objectives were to determine whether the Postal
 and Methodology             Service acquired APCs that met functional requirements,
                             capital funding levels, and schedule requirements specified
                             in the approved DAR and to determine whether the program
                             office kept the Board of Governors and senior Postal
                             Service officials fully and timely informed of program status.

                             To accomplish the audit objectives, we interviewed program
                             office personnel, Capital and Program Evaluation, Finance,
                             personnel, and the assigned headquarters Facilities
                             Coordinator. In addition, we performed limited testing of
                             APC functionality at 13 post offices and stations within the
                             xxxxxxxxxxxxxxxxxxx. We reviewed the following APC-
                             related documents:

                             •   DAR.
                             •   Solicitations, proposals, and pre-award correspondence.
                             •   Contracts and modifications, including statements of
                                 work.
                             •   Test plans and reported results.
                             •   Business impact assessment.
                             •   Security code review.
                             •   Abbreviated application risk assessment.
                             •   Contractor employee security clearance status reports.
                             •   Accounts Payable Accounts Reporting System reports.
                             •   Remedy system problem tickets.
                             •   Site survey and preparation cost reports.
                             •   Deployment schedules.
                             •   DAR compliance reports.
                             •   Quarterly Investment Highlights reports.




                                                     2
Automated Postal Center Program Management                                                            CA-AR-05-001



                                   Also, we compared APC DAR:

                                   •    Functionality requirements to program documents
                                        detailing the functionality of the deployed APCs.3
                                   •    Capital investment funding to contract prices and
                                        projected expenditures.
                                   •    Schedule requirements to program deployment
                                        schedules.

                                   This audit was conducted from March 2004 through
                                   December 2004 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls, as were considered necessary under the
                                   circumstances. We did not rely on any computer-generated
                                   data to support the opinions or conclusions in this report.
                                   We discussed our observations and conclusions with
                                   appropriate management officials and included their
                                   comments where appropriate.

    Prior Audit Coverage           In an April 9, 2004, memorandum to the Chairman, Board of
                                   Governors, CA-OT-04-001, Automated Postal Centers, we
                                   reported that the Postal Service delayed awarding the APC
                                   contract because APC requirements were not developed in
                                   sufficient detail to prepare a statement of work at the time
                                   the project was approved by the Board of Governors.

                                   Also, in a December 18, 2003, management advisory,
                                   DA-MA-04-001, Self Service Platform, we reported that the
                                   existing APC prototype met Retail’s four objectives of
                                   providing customers with convenient access, reducing
                                   customer-wait time in line, reducing the cost of selling
                                   Postal Service products, and providing easier customer
                                   access to premium products. There were, however,
                                   three areas of concern including lobby mailbox collection,
                                   identification of Express Mail acceptance times, and
                                   universal service language options. Postal Service officials
                                   agreed with the recommendations contained in the
                                   management advisory and we considered their taken or
                                   planned actions responsive.




3
  Although we performed limited testing of APC functionality, we did not perform comprehensive tests of APC
functionality and data security. The Office of Inspector General (OIG) is planning to perform an APC data security
review in fiscal year (FY) 2005.



                                                          3
Automated Postal Center Program Management                                              CA-AR-05-001



                                              AUDIT RESULTS
    Opportunities for                   On April 14, 2004, the APC program office began a phased,
    Improved APC Program                nationwide deployment of 2,500 APCs.4 As of August 11,
    Management                          2004, the Postal Service reported it had installed 912 APCs
                                        that had collected approximately $11.1 million in revenue
                                        and planned to complete deployment of the remaining
                                        1,588 APCs by November 2004. However, the Postal
                                        Service process for selecting APC deployment sites needed
                                        improvement. Although deployed APCs generally met
                                        requirements, they were missing four functional capabilities
                                        described in the DAR and APC development and
                                        deployment processes included control weaknesses that
                                        exposed the Postal Service to unnecessary risks.

                                        APC capital investment costs may exceed the approved
                                        $95.43 million capital funding level because the funding
                                        level was estimated before APC program requirements were
                                        sufficiently developed to prepare independent cost
                                        estimates or allow contractors to submit priced proposals. In
                                        addition, the Postal Service classified some program costs
                                        as expenses rather than capital investments.

                                        The program office generally kept the Board of Governors
                                        and senior Postal Service officials timely informed of
                                        changes in APC program status via the Investment
                                        Highlights reports. However, the program office did not
                                        disclose that four functional requirements described in the
                                        DAR were not included with deployed APCs. In addition, a
                                        potentially significant operational concept change was not
                                        revealed in the Investment Highlights report.




4
    Six of the 2,506 APCs planned for in the DAR were reserved for testing.



                                                            4
Automated Postal Center Program Management                                                        CA-AR-05-001




    APCs Provided Most               APCs generally met DAR functionality requirements.
    DAR Functional                   However, deployed APCs were missing four functional
    Requirements                     requirements described in the DAR.

                                     In addition, APC development and deployment processes
                                     included control weaknesses that exposed the Postal
                                     Service to unnecessary risks.

    APCs Missing Some                Deployed APCs were missing some functionality described
    Functionality                    in the DAR. In April 2004, the Postal Service began
                                     installing Release 1.0 APCs that were not capable of printing
                                     forms for all certified mail classes and return receipts or
                                     providing planned services, to include hold mail, track and
                                     confirm, and change-of-address. The Program Manager
                                     stated that future APC upgrades (Releases 1.1 and 1.2)
                                     would provide all of the functionality described in the DAR.
                                     Specifically:

                                     •   Release 1.1 should enable previously deployed APCs to
                                         print forms for all certified mail classes and return receipt,
                                         and, according to the Program Manager, was already
                                         included in the contract price. However, the Program
                                         Manager did not anticipate implementing Release 1.1
                                         until early 2005.

                                     •   Release 1.2 should provide customers hold mail, track
                                         and confirm, and change-of-address services. However,
                                         the Program Manager stated that Release 1.2 was not
                                         included in the contract price and would not be
                                         implemented until after Release 1.1.

                                     Although the contract statement of work describes basic
                                     APC services that included registering for hold mail, tracking
                                     delivery confirmation, and initiating changes-of-address,
                                     Postal Service officials stated they shifted some
                                     requirements to Releases 1.1 and 1.2 because the
                                     contractor could not finish all development efforts and begin
                                     deployment in April 2004.5

                                     Obtaining fully functional APCs may cost the Postal Service
                                     more than currently on contract. Additionally, deploying fully

5
 The deployment start date, as communicated in Investment Highlights reports beginning in September 2003,
changed from December 2003 to April 2004.



                                                       5
Automated Postal Center Program Management                                   CA-AR-05-001



                               functional machines that include services such as change-
                               of-address enhances the potential for increased customer
                               satisfaction.

 xxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxx                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                             6
Automated Postal Center Program Management                                CA-AR-05-001



                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxx

 xxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxx            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               •    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                             7
Automated Postal Center Program Management                                     CA-AR-05-001




 Recommendation                We recommend the Vice President, Delivery and Retail,
                               direct the APC Program Manager to:

                               1.   Fully develop and document requirements for planned
                                    automated postal center upgrades.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      there is a Change Release process that is used for all
                               planned upgrades.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and actions planned should correct the
 Comments                      issue identified in the finding.

                               Management’s comments did not include target completion
                               timeframes; however, subsequent discussions disclosed that
                               requirements planning for Releases 1.1 and 1.2 should be
                               completed in the second quarter of (FY) 2005.

 Recommendation                2.   Prepare development, production, test, and deployment
                                    schedules for automated postal center Releases 1.1
                                    and 1.2.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      the Change Release process is being used for Releases 1.1
                               and 1.2.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and actions planned should correct the
 Comments                      issue identified in the finding.

                               Management’s comments did not include target completion
                               timeframes; however, subsequent discussions disclosed that
                               their Change Release processes would culminate with the
                               deployment of Releases 1.1 and 1.2, planned for by the end
                               of the third quarter of FY 2005.

 Recommendation                3.   Develop cost estimates for planned automated postal
                                    center releases (specifically, Release 1.2 and any other
                                    planned upgrades not yet on contract). This effort
                                    should be coordinated with the development contractor
                                    and Capital and Program Evaluation (CAPE), Finance.



                                             8
Automated Postal Center Program Management                                   CA-AR-05-001




 Management’s                  Management agreed with the recommendation and stated
 Comments                      that part of the Change Release process includes obtaining
                               prices from the vendor. They stated they would also include
                               CAPE in the funding review for Release 1.2.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and actions planned should correct the
 Comments                      issue identified in the finding.

                               Management’s comments did not include target completion
                               timeframes; however, subsequent discussions disclosed that
                               planned actions would be completed in the second quarter
                               of FY 2005.

 Recommendation                We recommend the Vice President, Delivery and Retail,
                               direct the APC Program Manager to:

                               4.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxx

 Management’s                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Comments                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

 Evaluation of                 Although management indicated only partial agreement with
 Management’s                  the recommendation, their comments are responsive to the
 Comments                      recommendation since management actions planned should
                               correct the issue identified in the finding.

 Recommendation                5.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxx

 Management’s                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Comments                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxx


                                             9
Automated Postal Center Program Management                                  CA-AR-05-001




 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and action taken should correct the issue
 Comments                      identified in the finding.

 Recommendation                We recommend the Vice President, Delivery and Retail,
                               direct the APC Program Manager to:

                               6.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                    xxxxxxxxxxxxxxxxxxxxxx

 Management’s                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Comments                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxx

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and the action planned should correct the
 Comments                      issue identified in the finding.




                                             10
Automated Postal Center Program Management                                                              CA-AR-05-001




    APC Costs May Exceed               APC capital investment costs may exceed the approved
    Approved Funding                   $95.43 million capital funding level because the funding
                                       level was estimated before APC program requirements were
                                       sufficiently developed to prepare independent cost
                                       estimates or allow contractors to submit priced proposals.
                                       Specifically, the Postal Service incurred costs for some
                                       items not estimated in the DAR and exceeded certain DAR
                                       line item cost estimates. Additionally, the Postal Service
                                       classified some program costs as expenses rather than
                                       capital investments. If capital investment costs exceed the
                                       funding level specified in the DAR, the APC program may
                                       not generate the expected return on investment.

                                       Handbook F-66, General Investment Policies and
                                       Procedures, February 2002, paragraph 7-4.4, requires the
                                       Program Manager to prepare a DAR Modification Request
                                       when total capital funding required exceeds the approved
                                       amount.

    Costs Incurred for Some            APC contract costs for program management and project
    Items Not Estimated in             office administration, APC backdrops, and support of
    the DAR                            customer acceptance testing were not included in individual
                                       DAR line item estimates.6 Specifically:

                                       •   Postal Service personnel classified over $5.7 million
                                           of APC program management and project office
                                           administration contract costs as expenses because
                                           portions of these costs were associated with providing
                                           general support to the APC program office.
                                           Handbook F-66B, Investment Policies and Procedures –
                                           Major Equipment, February 2002, paragraph 3-4.1.1,
                                           requires nonrecurring expenditures be capitalized,
                                           including one-time contract labor. Since program
                                           management and project office administration contract
                                           costs in support of design, development, production, test,
                                           and delivery are nonrecurring, these costs should be
                                           capitalized.

                                       •   Postal Service personnel classified the $4.5 million APC
                                           backdrop contract costs as expense since the backdrops

6
  DARs include itemized listings of estimated expenditures (by category) used to calculate projects’ return on
investment.



                                                          11
Automated Postal Center Program Management                                                     CA-AR-05-001



                                        were not attached to the APC and did not cost at least
                                        $3,000 per unit.7 However, Handbook F-26, paragraph
                                        215, states, “capital equipment is composed of all
                                        component parts required for the equipment to operate
                                        as intended when it is acquired.” Also, Handbook F-66B,
                                        Investment Policies and Procedures – Major Equipment,
                                        February 2002, paragraph 3-4.1.1, states that
                                        nonrecurring expenditures should be capitalized. APC
                                        backdrops inform customers of alternative access to
                                        Postal Service products and services to reduce customer
                                        waiting time. Since backdrops operate with each
                                        deployed APC and their acquisition was nonrecurring,
                                        the Postal Service should capitalize these costs.

                                    •   Postal Service personnel classified $172,985 of
                                        contractor customer acceptance testing support costs as
                                        expense. Handbook F-26, Personal Property
                                        Accounting, December 1991, paragraph 222, states
                                        specific cost elements of capital equipment include
                                        charges for testing in preparation for use. Based upon
                                        this review, Postal Service personnel reclassified
                                        $101,403 of contractor First Article Testing support costs
                                        from expense to capital investment. Like contractor First
                                        Article Testing support, contractor Customer Acceptance
                                        Testing support helped prepare APCs for use; therefore,
                                        the Postal Service should capitalize these costs.

    Certain Costs Exceeded          APC and collection box contract costs exceeded individual
    DAR Line Item Estimates         DAR line item estimates. Specifically:

                                    •   APC development and deployment capital contract costs
                                        exceeded DAR lines estimates by approximately
                                        $12 million for:

                                         •   Software/hardware design, development, and testing
                                             ($1 million).
                                         •   Network infrastructure development ($2.4 million).
                                         •   Hardware ($5.6 million).
                                         •   Training ($0.2 million).
                                         •   Deployment ($2.8 million).



7
 Handbook F-26, Personal Property Accounting, December 1991, paragraph 221(a), states capital equipment must
have a unit cost of at least $3,000.



                                                     12
Automated Postal Center Program Management                                      CA-AR-05-001




                                   During this review, Postal Service personnel modified the
                                   APC development and deployment contract to reclassify
                                   approximately $2.1 million of hardware costs as expense.
                                   This reclassification could partially alleviate this issue.
                                   According to Postal Service personnel, when the contract
                                   was signed for $80.1 million, costs were not properly
                                   allocated between capital and expense contract line
                                   items. Specifically, per the Contracting Officer, the
                                   hardware capital line item was incorrectly priced at
                                   $41.9 million and did not reflect a $2.1 million concession
                                   for APC printers. However, based upon contract line
                                   item price notes and vendor correspondence, the
                                   $2.1 million was associated with the cost of APC forms
                                   printers, and the concession was reflected in expense
                                   line items to allow the overall contract price to remain at
                                   $80.1 million. As a result, these hardware costs should
                                   be capitalized.

                               •   The APC collection box contract cost exceeded the DAR
                                   capital line item estimate by approximately $1.5 million.
                                   Specifically, the collection box contract amount was
                                   approximately $2.9 million; however, the hardware DAR
                                   line estimate only included approximately $1.4 million for
                                   collection boxes.

                                   During this review, Postal Service personnel reclassified
                                   the collection box costs as expense which could alleviate
                                   this issue. Management advised that they initially
                                   capitalized the collection boxes because an early APC
                                   design concept envisioned them being attached directly
                                   to the APCs. Since the final APC design resulted in
                                   collection boxes being separate from the APCs and
                                   costing less than $3,000 each, management
                                   subsequently expensed these costs.

                                   Handbook F-26, Personal Property Accounting,
                                   December 1991, paragraph 215, states “capital
                                   equipment is composed of all component parts required
                                   for the equipment to operate as intended when it is
                                   acquired.” Also, Handbook F-66B, Investment Policies
                                   and Procedures – Major Equipment, February 2002,
                                   paragraph 3-4.1.1, states that nonrecurring expenditures
                                   should be capitalized.




                                              13
Automated Postal Center Program Management                                       CA-AR-05-001



                                   The collection box contract prequalification package
                                   noted that collection boxes were an integral part of the
                                   APC and would interface with it to enable the safe and
                                   secure collection of customers’ mail. Also, the DAR
                                   hardware requirements stated that free-standing or
                                   through the wall parcel acceptors will be provided with all
                                   machines.

                                   Collection boxes allow the Postal Service to better
                                   accomplish its retail objectives of providing customers
                                   convenient access to products and services 24-hours-a-
                                   day, 7-days-a-week and reducing wait in line time.

                                   Since collection boxes operate with each deployed APC
                                   and their cost was nonrecurring, these costs should be
                                   capitalized.

 Recommendation                We recommend the Acting Vice President, Finance,
                               Controller, in coordination with the Vice President, Delivery
                               and Retail:

                               7. Capitalize contract costs for program management and
                                  program office administration.

 Management’s                  Management disagreed with our finding and
 Comments                      recommendation. They stated contractor program
                               management and project office administration costs were
                               properly classified as expense since the documentation for
                               these items indicates that they are recurring costs.
                               Additionally, they stated contractor costs for delivery and
                               installation are separately listed on the invoice and are
                               correctly categorized as capital.

                               Also, management noted the report did not fully quote
                               Handbook F-66B, Investment Policies and Procedures –
                               Major Equipment, February 2002, paragraph 3-4.1.1,
                               because it did not include the word “normally,” and that
                               indicates that not all one-time contract labor costs are
                               capital.

                               Furthermore, management stated the sponsor consulted
                               with Corporate Accounting in accordance with procedures
                               and was advised to expense contractor program
                               management and project office administration costs.




                                              14
Automated Postal Center Program Management                                                    CA-AR-05-001




                                   Finally, management noted that in accordance with
                                   Handbook F-66B, Investment Policies and Procedures –
                                   Major Equipment, February 2002, “some one-time costs”
                                   may be expensed.8

    Evaluation of                  Management’s comments are not responsive to the finding
    Management’s                   and recommendation.
    Comments
                                   We agree that contractor delivery and installation costs are
                                   correctly categorized as capital. However, we disagree with
                                   management’s statement that contractor program
                                   management and project office administration are recurring
                                   costs. Although contractor program management and
                                   project office administration activities are on-going during
                                   the course of the contract and may result in periodic
                                   invoices, we continue to contend they are nonrecurring
                                   expenditures for the one-time contract labor associated with
                                   fulfilling the overall contract requirement to develop and
                                   deploy APCs. Therefore, these costs should be capitalized.

                                   Management correctly noted that we did not fully quote
                                   Handbook F-66B, Investment Policies and Procedures –
                                   Major Equipment, February 2002, paragraph 3-4.1.1.
                                   In addition, management correctly noted that
                                   Handbook F-66B, Investment Policies and Procedures –
                                   Major Equipment, February 2002, states that operating
                                   variances are generally recurring costs. However, we
                                   disagree with management’s reliance upon the words
                                   “normally” and “generally” for determining the proper
                                   accounting treatment for contractor program management
                                   and project office administration costs.

                                   We view the disagreement on recommendation 7 as
                                   unresolved and plan to pursue it through the formal audit
                                   resolution process.

    Recommendation                 We recommend the Acting Vice President, Finance,
                                   Controller, in coordination with the Vice President, Delivery
                                   and Retail:

                                   8. Capitalize costs for automated postal center backdrops.

8
 Management’s written comments cited Handbook F-66B, Investment Policies and Procedures – Major Equipment,
February 2002, Section 4-4.1.2. The correct citation is Section 3-4.1.2.



                                                    15
Automated Postal Center Program Management                                      CA-AR-05-001




 Management’s                  Management disagreed with the finding and
 Comments                      recommendation. They stated backdrop costs were
                               properly classified as expense since: (1) their intent is to
                               advertise and promote the APCs, (2) signage will change
                               over time to advertise other postal services, and (3) they are
                               not attached to the APCs or required for them to operate as
                               intended.

                               Also, management again noted that the report did not fully
                               quote Handbook F-66B, Investment Policies and
                               Procedures – Major Equipment, February 2002,
                               paragraph 3-4.1.1, because it did not include the word
                               “normally.”

                               Finally, management stated the sponsor consulted with
                               Corporate Accounting in accordance with procedures and
                               was advised to expense backdrop costs.

 Evaluation of                 Management’s comments are not responsive to the finding
 Management’s                  and recommendation.
 Comments
                               We agree that signage displayed on the APC backdrops
                               may change over time and that the backdrops are not
                               attached to the APCs. However, we continue to contend
                               that, in accordance with the objectives of the Decision
                               Analysis Report, backdrops were developed and deployed
                               with each APC to reduce customer waiting time by alerting
                               customers of alternative access to Postal Service products
                               and services. Since their acquisition was nonrecurring, the
                               Postal Service should capitalize the backdrop costs.
                               Finally, if backdrops are not necessary components for
                               APCs to operate as intended, we question management’s
                               decision to acquire them at a cost of approximately
                               $4.5 million.

                               Management correctly noted that we did not fully quote
                               Handbook F-66B, Investment Policies and Procedures –
                               Major Equipment, February 2002, paragraph 3-4.1.1.
                               However, we disagree with management’s reliance upon
                               the word “normally” for determining the proper accounting
                               treatment for APC backdrops.




                                             16
Automated Postal Center Program Management                                       CA-AR-05-001




                               We view the disagreement on recommendation 8 as
                               unresolved and plan to pursue it through the formal audit
                               resolution process.

 Recommendation                We recommend the Acting Vice President, Finance,
                               Controller, in coordination with the Vice President, Delivery
                               and Retail:

                               9. Capitalize costs for contractor Customer Acceptance
                                  Testing.

 Management’s                  Management agreed with the recommendation and has
 Comments                      plans to capitalize costs for contractor customer acceptance
                               testing.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and the action planned should correct the
 Comments                      issue identified in the finding.

                               Management’s comments did not include a target
                               completion timeframe; however, subsequent discussions
                               disclosed that their planned action would be completed in
                               the first quarter of FY 2005.

 Recommendation                10. Capitalize costs for printer hardware.

 Management’s                  Management disagreed with the finding and
 Comments                      recommendation and stated printer hardware costs were
                               properly classified since negotiations to include the printer
                               hardware did not result in an increase in the overall contract
                               price.

 Evaluation of                 Management’s comments are not responsive to the finding
 Management’s                  and recommendation.
 Comments
                               We agree that negotiations prior to contract award resulted
                               in the addition of printers at no increase in overall contract
                               price. However, we continue to contend that based upon
                               contract line item price notes and vendor correspondence,
                               $2.1 million is associated with APC forms printers as
                               reflected in the original contract and is not associated with
                               the expense line items where it was subsequently
                               reclassified. Thus, the $2.1 million associated with APC
                               forms printers should be capitalized.


                                             17
Automated Postal Center Program Management                                      CA-AR-05-001




                               We view the disagreement on recommendation 10 as
                               unresolved and plan to pursue it through the formal audit
                               resolution process.

 Recommendation                We recommend the Acting Vice President, Finance,
                               Controller, in coordination with the Vice President, Delivery
                               and Retail:

                               11. Capitalize costs for automated postal center collection
                                   boxes.

 Management’s                  Management disagreed with the finding and
 Comments                      recommendation and stated collection box costs were
                               properly classified as expense since collection boxes are
                               not an integral part of the APCs and the APCs could
                               function without them. Additionally, management stated
                               that when the design was changed to be separate from the
                               APC units, the collection boxes were changed to an
                               expense investment consistent with policy. Furthermore,
                               management stated some collection boxes are not even
                               located on the same lobby wall as the APCs.

                               Also, management again noted that the report did not
                               fully quote Handbook F-66B, Investment Policies and
                               Procedures – Major Equipment, February 2002,
                               paragraph 3-4.1.1, because it did not include the word
                               “normally.”

                               Finally, management stated the sponsor consulted with
                               Corporate Accounting in accordance with procedures and
                               was advised to expense collection box costs.

 Evaluation of                 Management’s comments are not responsive to the finding
 Management’s                  and recommendation.
 Comments
                               We continue to contend that without APC collection boxes,
                               customers would be required to take their packages with
                               affixed APC-generated postage to window clerks during
                               normal business hours, inhibiting the Postal Service’s retail
                               objectives of providing customers convenient access to
                               products and services 24 hours-a-day, 7 days-a-week, and
                               reducing wait in line time. Since APC collection boxes
                               operate with each deployed APC and their acquisition was
                               nonrecurring, the Postal Service should capitalize the



                                             18
Automated Postal Center Program Management                                      CA-AR-05-001



                               collection box costs. Finally, if collection boxes are not
                               necessary components for APCs to operate as intended, we
                               question management’s decision to acquire them at a cost
                               of approximately $2.9 million.

                               Management correctly noted that we did not fully quote
                               Handbook F-66B, Investment Policies and Procedures –
                               Major Equipment, February 2002, paragraph 3-4.1.1.
                               However, we disagree with management’s reliance upon
                               the word “normally” for determining the proper accounting
                               treatment for APC collection boxes.

                               We view the disagreement on recommendation 11 as
                               unresolved and plan to pursue it through the formal audit
                               resolution process.

 Recommendation                We recommend the Acting Vice President, Finance,
                               Controller, in coordination with the Vice President, Delivery
                               and Retail:

                               12. Submit a Decision Analysis Report Modification
                                   Request, if necessary, for Board of Governor
                                   consideration and approval that identifies additional
                                   capital funding requirements.

 Management’s                  Management agreed with the recommendation and
 Comments                      indicated their intent to prepare a Decision Analysis Report
                               Modification Request, if a change to the approved
                               investment funding is necessary.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and action planned should correct the
 Comments                      issue identified in the finding.




                                             19
Automated Postal Center Program Management                                                     CA-AR-05-001




    APC Deployment                As of August 11, 2004, the Postal Service reported it had
    Expected Within               deployed 912 APCs and expected to complete deployment of
    Revised Schedule              the remaining 1,588 APCs by November 2004.9 However, as
                                  previously stated, some functional requirements described in
                                  the DAR were not included with deployed APCs. In addition,
                                  the Postal Service’s process for selecting APC deployment
                                  sites needed improvement.

    APC Site Selection            The Postal Service process for selecting APC deployment
    Needed Improvement            sites needed improvement. The DAR stated, “site selection
                                  has been made based on a number of criteria . . . .” However,
                                  after the DAR was approved the program office provided
                                  headquarters Facilities personnel at least eight different
                                  deployment schedules.

                                  According to the Program Manager, initial site selection was
                                  limited to Marketing and Retail managers and did not include
                                  district personnel. Additionally, the focus of the deployment
                                  site selection criteria changed after the original sites were
                                  selected. For example, initial deployment sites were selected
                                  based upon available space, 24-hour, 7-days-a-week
                                  customer access, and walk-in stamp sales revenue. Later in
                                  the process, the focus for selection changed to customer
                                  wait-time-in-line.

                                  As a result, the Postal Service incurred over $68,700 in
                                  unrecoverable facility design and support costs for 46 sites no
                                  longer included in the APC deployment schedule (see
                                  Appendix A). Although circumstances may necessitate
                                  changes to the deployment schedule, proper coordination and
                                  planning should reduce the number of schedule changes.

    Recommendation                We recommend the Vice President, Delivery and Retail,
                                  direct the APC Program Manager to:

                                  13. Coordinate with all affected stakeholders to develop
                                      criteria and select deployment sites for all automated
                                      postal centers not yet scheduled for deployment and for
                                      any future automated postal centers acquisitions.


9
 According to the DAR, the Postal Service planned to complete APC deployment by July 2004. However, as
communicated in the September 30, 2003, Investment Highlights report, deployment completion changed to
November 2004.



                                                     20
Automated Postal Center Program Management                                                             CA-AR-05-001




 Management’s                       Management agreed with the recommendation and stated
 Comments                           they would coordinate the site selection process for future
                                    APCs with all affected stakeholders. Additionally,
                                    management stated that the appendix included in the draft
                                    audit report incorrectly identified five sites where
                                    unrecoverable facility design and support costs were
                                    incurred.

 Evaluation of                      Management’s comments are responsive to the
 Management’s                       recommendation and action planned should correct the issue
 Comments                           identified in the finding.

                                    Subsequent review of the five sites identified by management
                                    disclosed that three sites10 should not be part of the listing of
                                    sites no longer included in the APC deployment schedule.
                                    Management agreed and as a result, we revised Appendix A
                                    by reducing the number of sites no longer included in the
                                    APC deployment schedule from 49 to 46.




10
  Fairfax, Virginia – Main Office; Worth, Illinois – Main Office; Eugene/Springfield, Oregon – Processing and
Distribution Center.



                                                          21
Automated Postal Center Program Management                                      CA-AR-05-001




 Changes to APC                Generally, the program office kept the Board of Governors
 Program Status Timely         and senior Postal Service officials timely informed of
 Communicated                  changes in APC program status via the quarterly DAR
                               compliance reports, which were reflected in Investment
                               Highlights. Specifically, the September 30, 2003,
                               Investment Highlights report revealed the deployment
                               completion schedule changed to November 2004. Also, the
                               December 31, 2003, Investment Highlights report disclosed
                               possible capital funding concerns regarding underestimated
                               DAR cost projections.

                               However, the program office did not disclose that
                               four functional requirements described in the DAR were not
                               included with deployed APCs. In addition, a potentially
                               significant operational concept change was not revealed in
                               the Investment Highlights report. Specifically, the DAR
                               stated APCs would “provide customers with convenient
                               access to the postal products and services they most
                               frequently need 24 hours a day, seven days a week.”
                               However, Postal Service officials stated the Postal Service
                               plans to deploy approximately 1,000 of the
                               2,500 (40 percent) of the APCs to post offices without
                               24 hour, 7-days-a-week access.

                               Program office personnel stated they had not
                               communicated deployed APCs were missing four functional
                               requirements described in the DAR because the missing
                               functionality would not adversely affect the projected return
                               on investment included in the DAR. Also, program office
                               personnel indicated deploying APCs to post offices without
                               24-hour, 7-days-a-week access did not conflict with the
                               DAR.

                               Handbook F-66B, Investment Policies and Procedures –
                               Major Equipment, February 2002, Chapter 6, requires the
                               Program Manager to prepare and submit DAR compliance
                               reports quarterly to fulfill Investment Highlights reporting
                               requirements. The Investment Highlights report provides a
                               single source overview of investment projects approved by
                               the Board of Governors.

                               Fully informing the Board of Governors and senior Postal
                               Service officials of program status changes helps ensure



                                             22
Automated Postal Center Program Management                                     CA-AR-05-001



                               they have information needed to make sound investment
                               decisions.

                               The OIG plans to perform a separate review of Postal
                               Service procedures for tracking, monitoring, and reporting
                               the status of major development and acquisition programs to
                               ensure the Board of Governors and senior Postal Service
                               officials are fully informed of the status of major programs.

 Recommendation                We recommend the Vice President, Delivery and Retail,
                               direct the APC Program Manager to:

                               14. Submit quarterly Decision Analysis Report compliance
                                   reports that fully communicate missing automated
                                   postal center functionality and operational concept
                                   changes.

 Management’s                  Management agreed with the recommendation and stated
 Comments                      they would provide information about the four missing
                               functional requirements and clarity regarding locations
                               offering 24 hour, 7-days-a-week access in the quarter IV
                               (September 30, 2004) Investment Highlights report.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and action planned should correct the
 Comments                      issues identified in the finding.




                                             23
Automated Postal Center Program Management                                          CA-AR-05-001



                APPENDIX A. SITES NO LONGER INCLUDED IN
                      APC DEPLOYMENT SCHEDULE

Unrecoverable Cost:

         Costs incurred for facility design and support     $68,742



                                                                                           Support
                                                                                             and
                                                                                           Design
 Count        Area                  Unit Name                   City         State          Costs
           Capital                                                       District of
   1       Metro         Southwest Station                Washington     Columbia          $1,037.00
           Capital                                                       District of
   2       Metro         Georgetown Station               Washington     Columbia           1,037.00
           Capital                                                       District of
   3       Metro         National Capitol Station         Washington     Columbia           1,037.00
           Capital                                                       District of
   4       Metro         Ben Franklin Station             Washington     Columbia           1,037.00
           Capital
   5       Metro         Main Office                      Gaithersburg   Maryland           1,037.00
           Capital
   6       Metro         Riverdale Station                Hampton        Virginia           1,410.00
           Capital
   7       Metro         Main Office                      Harrisonburg   Virginia           1,410.00
           Capital
   8       Metro         Monticello Branch                Williamsburg   Virginia           1,410.00
   9       Eastern       Main Office                      Newark         Delaware           1,325.79
   10      Eastern       Oakley Station                   Cincinnati     Ohio               1,315.50
   11      Eastern       Queen City Station               Cincinnati     Ohio               1,315.50
   12      Eastern       German Village Station           Columbus       Ohio               1,311.00
   13      Eastern       Mt Vernon Station                Columbus       Ohio               1,311.00
   14      Eastern       Main Office                      Findlay        Ohio               1,315.50
   15      Eastern       Main Office                      Warren         Ohio               1,220.50
   16      Eastern       Retail Annex                     Zanesville     Ohio               1,311.00
   17      Eastern       William Penn Annex               Philadelphia   Pennsylvania       1,325.79
   18      Great Lakes   Air Mail Facility                Saint Louis    Missouri             433.62
           New York
   19      Metro         Main Office                      Babylon        New York           1,691.28
   20      Pacific       South Station                    Bakersfield    California         2,191.46
   21      Pacific       Main Office                      Cotati         California         2,191.46
   22      Pacific       Main Office                      Fallbrook      California         2,191.46




                                                    24
Automated Postal Center Program Management                                    CA-AR-05-001




                                                                                       Support
                                                                                      and Design
 Count        Area                  Unit Name                City           State       Costs
  23      Pacific       Rowland Heights Branch      La Puente            California     2,191.46
  24      Pacific       Belmont Shore Station       Long Beach           California     2,191.46
  25      Pacific       Main Office                 Los Altos            California     2,191.46
  26      Pacific       Main Office                 Poway                California     2,191.46
  27      Pacific       Alta Loma Branch            Rancho Cucamonga     California     2,191.46
  28      Pacific       Main Office                 Temecula             California     2,191.46
  29      Pacific       Retail                      Westminster          California     2,191.46
  30      Pacific       Main Office                 Pearl City           Hawaii         2,191.46
  31      Southeast     Sunset Point Branch         Clearwater           Florida        1,840.70
  32      Southeast     North Palm Beach Branch     West Palm Beach      Florida        2,000.00
  33      Southeast     Downtown Station            Delray Beach         Florida        2,000.00
  34      Southeast     Downtown Station            Lakeland             Florida        1,840.70
  35      Southwest     Main Office                 Conway               Arkansas         533.29
  36      Southwest     Main Office                 Jonesboro            Arkansas       2,198.00
  37      Southwest     Main Office                 Bossier City         Louisiana      1,416.00
  38      Southwest     Main Office                 West Monroe          Louisiana      1,416.00
  39      Southwest     Arsenal Station             San Antonio          Texas          2,073.54
  40      Western       Minnetonka Branch           Hopkins              Minnesota        860.94
  41      Western       St. Louis Park Branch       Minneapolis          Minnesota        860.94
  42      Western       Brooklyn Center Branch      Minneapolis          Minnesota        860.94
  43      Western       Diamond Lake Station        Minneapolis          Minnesota        860.94
  44      Western       Richfield Branch            Minneapolis          Minnesota        860.94
  45      Western       Fridley Branch              Minneapolis          Minnesota        860.94
  46      Western       Industrial Station          St. Paul             Minnesota        860.94

TOTAL                                                                                 $68,742.35




NOTES

Costs incurred for facility design and support represent charges for 46 sites no longer
on the APC deployment schedule.


UNRECOVERABLE COST - Costs that should not have been incurred and are not
recoverable.




                                              25
Automated Postal Center Program Management                CA-AR-05-001



                      APPENDIX B. MANAGEMENT’S COMMENTS




                                             26
Automated Postal Center Program Management        CA-AR-05-001




                                             27
Automated Postal Center Program Management        CA-AR-05-001




                                             28
Automated Postal Center Program Management        CA-AR-05-001




                                             29
Automated Postal Center Program Management        CA-AR-05-001




                                             30
